APPLICATION AND
SOLICITATION
DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Preferred Platinum

6.90% to 16.90%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum Points

8.90% to 18.90%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature

0.00%

Introductory APR for 12 months from account opening.

11.25% to 21.25%

After that, your APR will be
, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum

11.90% to 21.90% , based on your creditworthiness.
Secured Platinum

14.90%
APR for Balance Transfers

Preferred Platinum
6.90% to 16.90%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum Points
8.90% to 18.90%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature
0.00% Introductory APR for 12 months from account opening.
After that, your APR will be 11.25% to 21.25%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum
11.90% to 21.90%, based on your creditworthiness.
Secured Platinum
14.90%

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02401461-MXC10-C-1-101619 (MXC101-E)

APR for Cash Advances

Preferred Platinum
8.90% to 20.90%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum Points
10.90% to 22.90%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature
13.25% to 25.00% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum
13.90% to 25.00% , based on your creditworthiness.
Secured Platinum
18.90%

Penalty APR and When it Applies

None

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
If you are charged interest, the charge will be no less than $0.50.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Annual Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee - Preferred Platinum
- Cash Advance Fee - Platinum Points
- Cash Advance Fee - Platinum
- Cash Advance Fee - Secured Platinum
- Cash Advance Fee - Visa Signature
- Foreign Transaction Fee - Preferred
Platinum
- Foreign Transaction Fee - Platinum
Points
- Foreign Transaction Fee - Platinum
- Foreign Transaction Fee - Visa
Signature
- Foreign Transaction Fee - Secured
Platinum
Penalty Fees
- Late Payment Fee – Preferred Platinum,
Platinum Points, Visa Signature, Platinum
- Late Payment Fee - Secured Platinum
- Returned Payment Fee

None
None
$2.00
$2.00
$2.00
$2.00
$10.00 or 3.00% of the amount of each cash advance, whichever is greater
1.00% of each transaction in U.S. dollars
1.00% of each transaction in U.S. dollars
1.00% of each transaction in U.S. dollars
None
None

Up to $25.00
Up to $5.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR - Visa Signature: The Introductory APR for purchases and balance transfers
will apply to transactions posted to your account during the first 12 months following the opening of your account. Any

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02401461-MXC10-C-1-101619 (MXC101-E)

existing balances on Together Credit Union loan or credit card accounts are not eligible for the Introductory APR for
balance transfers.
Minimum Interest Charge: The minimum interest charge will be charged on any dollar amount.
Effective Date: The information about the costs of the card described in this application is accurate as of: May 1, 2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.

.

Missouri Fee Notice - Preferred Platinum, Platinum Points, Visa Signature and Platinum: Credit card fees are
governed by §408.145 of the Missouri Revised Statutes.
Missouri Fee Notice - Secured Platinum: Credit card fees are governed by §408.140 of the Missouri Revised Statutes.
For California Borrowers, the Secured Platinum is a secured credit card. Credit extended under this credit card
account is secured by various personal property and money including, but not limited to: (a) any goods you
purchase with this account, (b) any shares you specifically pledge as collateral for this account on a separate
Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union excluding
shares in an Individual Retirement Account or in any other account that would lose special tax treatment under
state or federal law, and (d) collateral securing other loans you have with the Credit Union excluding dwellings.
Notwithstanding the foregoing, you acknowledge and agree that during any periods when you are a covered
borrower under the Military Lending Act your credit card will be secured by any specific Pledge of Shares you
grant us but will not be secured by all shares you have in any individual or joint account with the Credit Union.
For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card account when you are
not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
For Secured Platinum Only: The following fees do not apply to borrowers in the State of Missouri: Account Set-up Fee,
Program Fee, Participation Fee, Additional Card Fee, Application Fee, Balance Transfer Fee, Transaction Fee for
Purchases, Foreign Transaction Fee, Over-the-Credit Limit Fee, Statement Copy Fee, Document Copy Fee, Rush Fee,
Emergency Card Replacement Fee, PIN Replacement Fee, Card Replacement Fee and Unreturned Card Fee.
Late Payment Fee - Preferred Platinum, Platinum Points, Visa Signature and Platinum: $25.00 or the amount of the
required minimum payment, whichever is less, if you are five or more days late in making a payment.
Late Payment Fee - Secured Platinum: $5.00 or the amount of the required minimum payment, whichever is less, if you
are 15 or more days late in making a payment.
Cash Advance Fee (Finance Charge) - Preferred Platinum, Platinum Points, Platinum and Secured Platinum: $2.00.
Cash Advance Fee (Finance Charge) - Visa Signature: $10.00 or 3.00% of the amount of each cash advance, whichever
is greater.
Returned Payment Fee: $25.00 or the amount of the required minimum payment, whichever is less.
Pay-by-Phone Fee: $10.00. If your account is subject to the Pay-By-Phone Fee, except as applicable by law, a fee will be
charged for each time you make an expedited payment by telephone.
Rush Fee - Preferred Platinum, Platinum Points, Visa Signature and Platinum: Up to $30.00.
Statement Copy Fee - Preferred Platinum, Platinum Points, Visa Signature and Platinum: $2.00 per document. However,
this fee is waived if you are an Eagle Advantage member.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02401461-MXC10-C-1-101619 (MXC101-E)

